<html>
<title> - AN OVERVIEW OF THE BUDGET PROPOSAL FOR THE DEPARTMENT OF ENERGY FOR FOR FISCAL YEAR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  AN OVERVIEW OF THE BUDGET PROPOSAL
                      FOR THE DEPARTMENT OF ENERGY
                          FOR FISCAL YEAR 2017

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 22, 2016

                               __________

                           Serial No. 114-69

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                             ____________
                             
                             
                    U.S. GOVERNMENT PUBLISHING OFFICE
20-839PDF                 WASHINGTON : 2017                    
             
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a>  
              
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                            C O N T E N T S

                             March 22, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    15

Statement by Representative Zoe Lofgren, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    17
    Written Statement............................................    19

                               Witnesses:

The Honorable Ernest Moniz, Secretary of Energy, U.S. Department 
  of Energy
    Oral Statement...............................................    22
    Written Statement............................................    25
Discussion.......................................................    65

             Appendix I: Answers to Post-Hearing Questions

The Honorable Ernest Moniz, Secretary of Energy, U.S. Department 
  of Energy......................................................    98

            Appendix II: Additional Material for the Record

Documents submitted by Representative Brian Babin, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   130

Documents submitted by Representative Marc Veasy, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   134

Documents submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   136

Documents submitted by Representative Elizabeth H. Esty, 
  Chairman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................   143

The Honorable Ernest Moniz, Secretary of Energy, U.S. Department 
  of Energy                                                         144

Documents submitted by Representative Eddie Bernice Johnson, 
  Ranking Minority Member, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   161

 
                   AN OVERVIEW OF THE BUDGET PROPOSAL
                    FOR THE DEPARTMENT OF ENERGY FOR
                          FOR FISCAL YEAR 2017

                              ----------                              


                        TUESDAY, MARCH 22, 2016

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:06 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. Good morning. The Committee on Science, 
Space, and Technology will come to order. Without objection, 
the Chair is authorized to declare recesses of the Committee at 
any time.
    Welcome to today's hearing entitled ``An Overview of the 
Budget Proposal for the Department of Energy for Fiscal Year 
2017.'' I'll recognize myself for an opening statement and the 
Ranking Member, the gentlewoman from California, for hers.
    Today, the Committee on Science, Space, and Technology will 
examine the Department of Energy's Fiscal Year 2017 budget 
request. The Science Committee has jurisdiction over more than 
one-third of the Department's $30 billion budget, including 
almost $13 billion for fundamental scientific research and 
energy R&D. This includes the Department of Energy Office of 
Science, which is America's lead federal agency for basic 
research in the physical sciences. DOE's basic scientific 
research and energy R&D are conducted by 31,000 researchers at 
over 300 sites around the country, which include universities 
and the 17 national labs.
    The fundamental research conducted by the Office of Science 
has led to groundbreaking discoveries about our universe, made 
possible innovative new technologies, and provided the 
foundational knowledge for private sector achievements across 
our energy and manufacturing industries.
    This Committee provided strong support for the Office of 
Science through the America COMPETES Reauthorization Act, which 
provided $5.3 billion for basic research. The Science Committee 
bill passed the House last year. And that authorized level was 
enacted into law as part of the 2016 omnibus appropriations.
    I'm pleased to see this budget proposal build on COMPETES 
and Congressional appropriations to provide priority funding 
for basic R&D. Unfortunately, the President's budget proposal 
doesn't stop there. The President refuses to make the tough 
choices necessary in a responsible budget environment.
    Instead, the fiscal year 2017 proposal reads like a 
wishlist for the White House's political allies. It uses budget 
gimmicks to add more spending for expensive commercial 
technologies already available to American consumers or 
rejected by them in the market. For example, the Office of 
Energy Efficiency and Renewable Energy (EERE) receives an 
increase of $830 million, or 40 percent, in discretionary 
spending in the fiscal year 2017 budget.
    In addition to this unjustified substantial increase, the 
Obama Administration proposes adding another $1.3 billion in 
new mandatory spending for ``clean transportation.'' This 
allows DOE to commit large sums of money without following the 
budget caps set in law. Combined, this is a 105 percent 
increase in EERE's budget. The President's budget does not 
reflect current constraints on federal spending or support a 
balanced, all-of-the-above energy strategy.
    The President's budget also proposes significant spending 
to support the administration's Mission Innovation initiative. 
This commitment was made during the Paris climate change 
negotiations and doubles federal spending on clean energy 
research and development.
    But investment is not made primarily in basic research in 
pre-commercial areas such as high-performance computing and 
advanced materials that cannot be accomplished by the private 
sector. Instead, this budget appears to focus Mission 
Innovation dollars on methods to move renewable energy into the 
market.
    The budget proposal lacks transparency on Mission 
Innovation. It should be clear what the Department hopes to 
accomplish since this budget proposal cuts projects with 
bipartisan support in order to fund this initiative. One 
example is the Department's proposed $40 million in cuts to 
fusion energy research. This is $90 million below the 
authorization in the House-passed America COMPETES Act. Fusion 
energy research could provide for safe, clean, and reliable 
energy for Americans in the future. If Mission Innovation is 
about investing in long-term research for clean energy, fusion 
should be a priority.
    In my home state of Texas, funds awarded to the Texas Clean 
Energy Project, a coal gasification project with longstanding 
bipartisan support, were abruptly pulled to fund these new 
clean energy priorities. Since the project is expected to 
capture 90 percent of the CO<INF>2</INF> emitted from enhanced 
oil recovery in the Permian Basin, it is hard to understand how 
this project doesn't meet the administration's ``clean energy'' 
standards. I'm pleased to be working with my Ranking Member 
colleague, Ms. Johnson, to restore funding to this important 
project.
    While Secretary Moniz and I may disagree on the spending 
and research priorities outlined in the administration's 
budget, we do share an appreciation for DOE's vital role in 
maintaining American leadership in scientific discovery and 
technological achievement.
    Over the past year, this Committee has examined a broad 
range of the Department's research. It is our responsibility in 
Congress to ensure American tax dollars are spent wisely and 
efficiently. As we shape the future of DOE, our priority must 
be basic energy research and development that only the federal 
government has the resources to pursue. This will allow the 
private sector to move groundbreaking technology to the market 
across the energy spectrum, create jobs, and help our economy.
    I want to thank Secretary Moniz for a good working 
relationship with this Committee and for his open and 
straightforward approach to issues of mutual interest.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, Ms. Lofgren, is recognized for hers.
    Ms. Lofgren. Thank you, Chairman Smith, for holding this 
hearing, and thank you, Secretary Moniz, for being here to 
discuss the fiscal year 2017 budget proposal and for your 
distinguished service to our country not only during this 
Administration but throughout your career.
    I think we can all agree that the federal investments in 
research and development have proven to be worth every penny, 
especially in the energy sector. Without these crucial 
investments over the past century, the nuclear power industry 
would not be where it is today, the shale gas boom might never 
have happened, and our growing utilization of the vast array of 
renewable sources might be nonexistent. So I'm proud of our 
accomplishments but we need to look ahead.
    During the Paris climate negotiations, Secretary Moniz and 
Bill Gates took a basic idea, doubling our investment in clean 
energy, and grew it into an unprecedented effort to modernize 
our world energy economy. Mission Innovation is a joint effort 
between 20 countries to double publicly funded clean energy 
research over the next 5 years.
    This was coupled with an announcement from a group of many 
of the world's top private sector investors called the 
Breakthrough Energy Coalition which aims to invest billions of 
dollars in commercializing new technologies developed in 
Mission Innovation partner nations. COP21 was an ideal location 
for Mission Innovation to come to fruition, and the way we 
produce and use energies over the coming decades will 
ultimately determine the future of our planet. And technology 
and innovation is a key factor in all of this.
    And so I applaud you, Secretary Moniz, for your work to 
guarantee a brighter future in the face of the growing threat 
of climate change.
    The budget request is the first attempt to identify and 
account for Mission Innovation funding, and I'm pleased to say 
I believe the proposals for the Office of Energy Efficiency and 
Renewable Energy, the Office of Electricity, ARPA-E, and most 
of the programs within the Office of Science are in line with 
the thrust of this new initiative, and I strongly support them.
    However, I am concerned that some areas of the budget were 
neglected, areas that are consistent with the ultimate goal of 
achieving a clean energy future. And while I appreciate this 
year's reasonable request for supporting the operations of the 
National Ignition Facility, the Fusion Energy Science budget, 
as the Chairman has mentioned, within the Office of Science 
seems to baffle me every year. With a ten percent cut proposed 
last year, followed a nine percent cut this year, it's the only 
program within the Office of Science receiving a cut, and 
they're just does not seem to be justification provided for 
this decision.
    The potential for fusion energy is growing, as we see 
incredibly innovative researchers and companies approaching 
this challenge with new ideas and designs, yet these innovative 
concepts seem to reach a dead-end if they go to FES for 
support.
    The landscape and potential for fusion research is 
changing, and it does not appear that the fusion energy budget 
is changing with it. It would be disappointing and 
disheartening if the ultimate fusion breakthrough never saw the 
light of day because of unnecessary limitations within this 
budget.
    Now, Ranking Member Johnson is with President Obama today. 
It's the only reason why she's not here, and I want to mention 
her concern with the budget for the Office of Fossil Energy and 
in particular the proposed de-obligation of funds for the Texas 
Clean Energy Project also mentioned by the Chairman. I joined 
the Texas and Washington delegations in their desire to work 
with you to come to a fair and transparent path forward for 
this project. It appears to have a great deal of potential for 
developing and deploying carbon capture technologies that could 
be key to meeting our and the world's climate targets.
    More broadly, the research and development activities 
carried out by the Office of Fossil Energy are almost entirely 
devoted to climate and environmental impact mitigation, and as 
much as I would like to see a faster shift toward renewable and 
other low-carbon sources in the near term, I expect that we 
will continue to rely on some mix of fossil fuels. So we need 
to find ways to make them cleaner sources of power in the 
interim, and I'm afraid this budget does not properly 
prioritize that responsibility, especially in the context of 
Mission Innovation.
    In addition, I'm interested in learning more about how the 
budget proposal supports the future of advanced fission 
reactors, which have the potential to be significantly safer 
while producing far less waste than the current generation of 
nuclear reactors. As a zero-emissions source of energy that can 
provide reliable baseload power, researching these new 
technologies should be a high priority. But the proposed 28 
percent cut to advanced reactor technologies does not seem to 
indicate that.
    So while there's lots to like in this budget request, I 
think we can understand why we'll also have more than a few 
questions. Your agency plays a lead role in determining how we 
power our economy and protect our environment. I very much 
appreciate your leadership and look forward to working with you 
to address each of these concerns.
    And thank you, Mr. Chairman. I yield back the balance of my 
time.
    [The prepared statement of Ms. Lofgren follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Ms. Lofgren.
    Our witness today is the Hon. Ernest Moniz, Secretary of 
the Department of Energy. Prior to his appointment, Dr. Moniz 
was the head of the Department of Physics at the Massachusetts 
Institute of Technology where he was a faculty member since 
1973. Previously, Dr. Moniz served as Under Secretary of the 
Department of Energy where he oversaw the Department's science 
and energy programs. From 1995 to 1997, he served as the 
Associate Director for Science in the Office of Science and 
Technology Policy in the Executive Office of the President.
    Dr. Moniz brings both impressive academic credentials and 
practical skills to a very demanding job. Dr. Moniz received a 
bachelor of science degree in physics from Boston College and a 
doctorate in theoretical physics from Stanford University. 
Secretary Moniz, we welcome you and look forward to your 
testimony.

            TESTIMONY OF THE HONORABLE ERNEST MONIZ,

              SECRETARY, U.S. DEPARTMENT OF ENERGY

    Secretary Moniz. Thank you, Mr. Chairman and Ranking Member 
Lofgren and Members of the Committee. I appreciate the 
opportunity to discuss our budget proposal with you today. It 
totals $32.5 billion in discretionary mandatory spending, but I 
want to emphasize the request for annual appropriations is 
$30.2 billion, an increase of two percent above the fiscal year 
2016 enacted appropriation. And that two percent applies to 
both the national security and the domestic side of the ledger.
    It is supplemented by the $2.3 billion in mandatory 
spending request, including $750 million for R&D and $674 
million for uranium enrichment D&D, the latter from the USEC 
fund.
    I want to emphasize, however, that in particular the $1.6 
billion USEC fund is an existing, not new, mandatory spending 
account, and our proposal is in keeping with the spirit of 
current authorization that revenues from the beneficiaries of 
past uranium enrichment, rather than taxpayers at large, be 
used to pay the cost of D&D of the now-shuttered facilities. 
The USEC fund, by the way, is one of three federal funds 
totaling nearly $5 billion that can be used in this manner.
    I want to acknowledge that underpinning all of these 
priorities is stewardship of the Department as a Science and 
Technology powerhouse, with an unparalleled network of 17 
national laboratories. And we are working hard to strengthen 
the strategic relationship between the Department and our 
national laboratory network.
    And finally, in this introduction, I want to highlight the 
crosscutting R&D initiatives in the budget. Among these 
initiatives are large increases proposed for grid 
modernization, the energy-water nexus, and the exascale high-
performance computing initiative to support everything from 
nuclear weapons to energy technologies to cancer solutions.
    The supporting budget details for each of these are 
provided in an extensive statement for the record, which I 
request be inserted into the record, and I will spend my last 
few minutes discussing our Mission Innovation initiative.
    The fiscal year 2017 budget includes an increase of 21 
percent in discretionary spending for clean energy R&D 
activities supporting our U.S. Mission Innovation initiative. 
The President's budget proposes this increase within the 
overall discretionary budget cap.
    Mission Innovation is an unprecedented global initiative by 
20 countries pledging to seek doubling of public clean energy 
R&D over five years. Those countries represent over 80 percent 
of global government investment in clean energy R&D, so this 
entails a highly leveraged opportunity to drive energy 
innovation.
    The initiative is long overdue. In 2010, the American 
Energy Innovation Council, comprised of CEOs from multiple 
sectors, recommended that the government triple its investment 
in clean energy R&D. The Council made three points: One, 
innovation is the essence of America's strength; two, public 
investment is critical; three, the cost of RD&D are tiny 
compared with the benefits.
    So the pledge to seek to double the level of investment 
over five years is ambitious but needed in the context of the 
AEIC. Bill Gates, who was the leader of the AEIC, I know has 
recently met with a number of Members of Congress and 
reiterated the need for greatly increased government-sponsored 
energy R&D.
    The objective of Mission Innovation is to greatly expand 
the suite of investable opportunities in clean energy 
technologies. The U.S. and global clean energy markets have 
been growing rapidly, but they should pick up the pace even 
more now as the world's nations implement the Paris agreement. 
Picking up the pace of our own clean energy innovation will 
result in commensurate benefits for our economy, environment, 
and security.
    The scope of Mission Innovation spans the innovation cycle, 
from the earliest stages through initial demonstration, but 
with a weighting towards the early stages. And all clean 
supply-and-demand technologies and infrastructure enablers are 
part of it.
    Mission Innovation is complemented by the Breakthrough 
Energy Coalition that was referred to, launched simultaneously 
with Mission Innovation, spearheaded by Bill Gates, launched 
with 28 investors from 10 countries. The Coalition committed to 
providing investment in new technologies originating from the 
innovation pipelines in the Mission Innovation countries from 
early-stage R&D through ultimate deployment. These investors 
are committed to a higher risk tolerance and patience for 
return than is typical, combined with a willingness to take the 
most promising innovations all the way past the finish line to 
deployment. And that's another important leveraging of the 
Mission Innovation proposal.
    In particular, I want to single out the fiscal year 2017 
budget proposal for $110 million to establish Regional Clean 
Innovation Partnerships as not-for-profit consortia 
competitively selected for a fixed period to manage regional 
clean energy R&D programs focused on the energy needs, 
policies, resources, and markets of the individual regions.
    The program design and portfolio composition for each 
partnership will be based on regional priorities. As research 
portfolio managers, not performers, the partnerships will 
connect resources and capabilities across universities, 
industry, innovators, investors, and other regional leaders to 
accelerate the innovation process within each region.
    This approach tracks recommendations from the National 
Research Council's Rising to the Challenge, which noted that, 
``until very recently, U.S. federal agencies have done little 
to support state and regional innovation cluster initiatives'' 
and recommended that ``regional innovation cluster initiatives 
by state and local organizations should be assessed, and where 
appropriate, provided with greater funding and expanded 
geographically.''
    The Mission Innovation budget also supports increased 
investments in successful ongoing innovation programs at 
universities, national labs, companies, programs such as ARPA-
E, energy frontier research centers, advanced manufacturing, 
bioenergy centers, advanced transportation technologies, 
advanced nuclear reactor technologies, and next-generation 
carbon-capture technologies, to name a few.
    In closing, I want to note that we will be holding a set of 
regional meetings across the country to gain input on these 
regional partnerships, and for the Chairman and Ranking Member 
Johnson, I'd like to say that we will have a May meeting in 
Texas, and we will extend invitations to both of you.
    That concludes my summary. Thank you for your interest, and 
I look forward to the discussion.
    [The prepared statement of Secretary Moniz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Secretary Moniz, and I'll 
recognize myself for questions.
    And that meeting that you just mentioned is going to be in 
Austin, Texas, is it not, May 9?
    Secretary Moniz. May 9 is the plan----
    Chairman Smith. Okay.
    Secretary Moniz. --in Austin, Texas----
    Chairman Smith. Great.
    Secretary Moniz. --at U.T.
    Chairman Smith. All right. My first question goes to the 
subject of the budget, and just to make sure that we all 
understand, this is a budget proposal that the President cannot 
unilaterally implement. It is a budget that has to be 
authorized and appropriated by Congress, and that may or may 
not be exactly what the President requested. Is that the case?
    Secretary Moniz. I believe we are here, in fact, to seek 
support for the budget, yes.
    Chairman Smith. Okay. Secretary Moniz, my next question 
goes to our oversight responsibilities. And the Committee has 
engaged in continued oversight of the Department, including 
raising questions about DOE's Loan Guarantee Program, DOE home 
energy standards, DOE scientists who may have been fired for 
talking to the committee staff, and then just last week, a 
bipartisan request regarding the Texas Clean Energy Project.
    While we have received some documents from DOE on these 
issues, and I appreciate your telling me yesterday that you are 
conducting an investigation in regard to the home energy 
standards issue, many of our questions remain outstanding. For 
example, in the case of the DOE Loan Guarantee Program, we have 
yet to receive the Department's Risk List, which would include 
DOE's assessment of the risk for each loan guarantee.
    Now, just last week, news broke that the Ivanpah solar 
plant, which received a $1.6 billion loan guarantee, was 
struggling to meet its production commitments. And will you be 
able to assure us today that we will get the information we 
have requested, including the Risk List?
    Secretary Moniz. As we discussed, Mr. Chairman, the Risk 
List is very sensitive for proprietary information, but I think 
the best thing we could do is perhaps arrange a briefing on 
that risk profile of our various projects.
    Chairman Smith. Okay. Let's start with the briefing and 
then we'll go from there. Thank you.
    My next question is this: In--another subject involves 
the--what I mentioned just a minute ago, the DOE scientist who 
worked with this committee that was fired six days after 
meeting with our committee staff. These discussions took place 
at the Committee's request, and the briefing was organized 
through DOE Congressional Affairs.
    I just am curious whether any officials connected to that 
episode have in any way been sanctioned or upbraided, or is 
that going to wait on your--on some internal investigation?
    Secretary Moniz. That particular case, we indeed delved 
into that, and a settlement was reached that is confidential 
among the parties. But the employee is employed at the 
Department of Energy.
    Chairman Smith. Right. I understand that. We are still, 
however, interested in the circumstances that caused the 
dismissal of the employee. We're also concerned about an 
intimidation factor in regard to other employees who might talk 
to members of our staff. And in that regard, will you also 
assure us today that you'll provide the documents and 
information that we have requested? I know some more was 
forthcoming, I think, yesterday----
    Secretary Moniz. Last night, yes.
    Chairman Smith. --but not everything we have asked for, and 
so in regard to what--the documents that remain that we've 
asked for, can we----
    Secretary Moniz. Well, we--okay. I believe our General 
Counsel felt they were being responsive, but let's get together 
again with your staff, make sure what the staff views as not 
including in those documents yesterday, and we'll keep working 
at it to----
    Chairman Smith. Okay.
    Secretary Moniz. --get you what you want.
    Chairman Smith. I would guess your general counsel knows 
the documents that we have not yet received, and I guess I'm 
looking for an assurance that, all things being equal, that we 
will get those documents in a timely fashion.
    Secretary Moniz. Again, I am committed to providing 
documents as much as we can within the constraints of the 
General Counsel says if there are things that are----
    Chairman Smith. Okay.
    Secretary Moniz. --proprietary and need to be kept very 
close hold. Those could be a discussion with the counsel in 
terms of----
    Chairman Smith. Okay. In regard to this particular subject, 
we have not been told any of the documents are proprietary; 
it's just the question of----
    Secretary Moniz. No, no, it's not proprietary. It's--the 
settlements was reached as a settlement between the employee 
and the department and----
    Chairman Smith. Right. We're looking at communications, as 
you may or may not know, and those communications, I don't 
think, would be a part of any settlement. So to the extent that 
you can, you will give us the documents?
    Secretary Moniz. I--absolutely.
    Chairman Smith. Okay.
    Secretary Moniz. Yes.
    Chairman Smith. Thank you, Secretary Moniz.
    And the gentlewoman from California, Ms. Lofgren, is 
recognized for her questions.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I would just note that our staff calculates that your 
department has sent over about 8,000 pages of documents in 
response to inquiries this year, so I know you'll continue to 
work with the Committee, but I wouldn't want people to think 
that you haven't delivered boatloads of information to the 
Committee.
    I also want to talk about fusion energy. As you know, we've 
talked about that in the past. I'm particularly concerned about 
the National Ignition Facility and its importance. I know 
you're aware. We were at the groundbreaking together. And I've 
been trying to follow up on this. As you know, I'm sure, Dr. 
Holden in 2014 said that we couldn't support inertial fusion 
energy R&D activities that weren't relevant to the nuclear 
weapons reliability unless ignition was achieved.
    Now, subsequent to that, there was a National Academy 
report that had some very important proposals. Actually, that 
was prior to that. And I felt that Dr. Holden, who I admire a 
great deal, that his answer to my questions were not consistent 
with the National Academy recommendations.
    To follow up, I sent a letter to you in November to try and 
clarify the misunderstanding, and there had been statements 
made by the co-Chairs of the Academy report explaining their 
findings, their intent. And last month, I heard from the NSA 
Administrator, not you, indicating that they could not divert 
so-called--it's their word--the Fusion Energy Science program 
from its primary mission.
    Now, my question is this: The primary mission of the 
Department of Energy's Fusion Energy Science program is to 
steward research in promising fusion energy pathways. And 
considering that there's still no ongoing program at the Office 
of Science or ARPA-E for the--or the NNSA for proposals to 
conduct research in this area to compete for federal funding, 
how can we begin implementing the recommendations from the 
National Academy's report and establish a program that 
directly, officially supports R&D in inertial fusion for energy 
applications or at least find a way to allow strong, merit-
reviewed proposals for inertial fusion energy research to be 
eligible for federal support? How do we do that?
    Secretary Moniz. Thank you. First, context would be 
interesting to put out there. And, first of all, the good news 
is NIF has become more effective in----
    Ms. Lofgren. That is correct.
    Secretary Moniz. --and up over 350 shots last year. And the 
primary mission unquestionably is the Stockpile Stewardship 
Program----
    Ms. Lofgren. Of course.
    Secretary Moniz. --for which it has made major 
contributions. However, almost 20 percent of the shots were 
dedicated last year to non-stockpile stewardship activities, 
and those range from basic science in astrophysics to 
activities relevant to potential fusion.
    However, the National Academy's overarching recommendation, 
as I understand it, was that a structured program would await 
ignition. And as you know, ignition has proved elusive. So we 
continue to optimize both beam and target physics to achieve 
ignition, which would be the threshold for a more systematic 
ICF program.
    Ms. Lofgren. I don't think that's correct.
    Secretary Moniz. Okay.
    Ms. Lofgren. And I don't want to get in a debate here 
because our time is limited. Perhaps we can follow up after 
this hearing----
    Secretary Moniz. Sure.
    Ms. Lofgren. --and go through the National Academy report.
    Let's talk about the alternative approaches. Now, there 
have been several promising alternative approaches to fusion 
from small and midsize startups, and we had talked earlier 
about ARPA-E doing a three-year program to further explore 
potential for some of these concepts called the magnetized 
target fusion, but that program is temporary and it doesn't 
cover the full range of emerging alternatives that currently 
don't have federal support.
    What is the Department considering to ensure the full range 
of viable options for commercial fusion energy in terms of 
vetting and, where appropriate, actively--active pursuit? And 
does the Office of Science's current fusion research program 
have the flexibility to shift resources to new approaches if 
they don't align, for example, the tokamak research pathway? If 
not, what flexibility does the Office of Science need to be 
provided to do that?
    Secretary Moniz. First of all, the ARPA-E program, of 
course, like all the ARPA-E programs, are 3-year----
    Ms. Lofgren. Of course.
    Secretary Moniz. --kind of programs, and I might add, by 
the way, that some of the support from the ARPA-E program will 
actually be carried out at NIF, so that is part of a fusion 
program actually at NIF in terms of those experiments.
    In terms of the Office of Science fusion program--well, 
first of all, we have to say, you know, the--kind of the 
elephant in the room, frankly, is the trajectory for the ITER 
project----
    Ms. Lofgren. Right.
    Secretary Moniz. --and we are due to provide Congress a 
report on May 2 following a major project review in April. No 
matter which way we and the Congress go, that will have 
significant implications obviously for the science fusion 
program.
    The program certainly has flexibilities within the budget 
constraints. I mean, there are discussions about, well, first 
of all the MIT--I am past my recusal period. The MIT program is 
shut down in this budget. That accounts for much of the drop in 
the budget. So General Atomics has the tokamak work. Princeton 
has alternative work. The whole stellarator approach is of 
interest there. So they have the flexibility. It's a question 
of structuring the program within the budget.
    Ms. Lofgren. I think my time is expired, Mr. Chairman, so 
thank you for yielding to me.
    Secretary Moniz. And if I may add, I would be happy to 
follow up on that ICF in the next few----
    Ms. Lofgren. I would look forward to that, and maybe we can 
get to--rather than sending letters back and forth, get to an 
understanding on it.
    Chairman Smith. Thank you, Ms. Lofgren.
    The gentleman from Georgia, Mr. Loudermilk, is recognized 
for his questions.
    Mr. Loudermilk. Thank you, Mr. Chairman, and thank you, 
Secretary Moniz, for being here.
    And before I start my question, I would just like to extend 
my heartfelt prayers to the people in Brussels, Belgium, this 
morning for the horrific terrorist attacks taken against our 
friends and allies and remind people that it's not just the 
people of the Belgium that were attacked, but many Americans 
who serve at NATO live in that area. And the terrorism is a 
real, real-time threat not only overseas but here in the United 
States, as we have recently learned.
    As part of my responsibility in Congress, I serve as the 
Chairman of the Oversight Subcommittee, on this honorable 
committee. I also sit on the Homeland Security Committee, and 
back in May we traveled through the Middle East and even into 
Europe, and I went to Brussels as part of a counterterrorism 
task force.
    And one of the scenarios that we have to look at and one of 
the things that frightens me much more than other attacks that 
we have seen is a potential of a dirty bomb, release of 
radiation on our citizens not necessarily through a nuclear--
traditional nuclear bomb but just a dirty bomb that releases 
radioactive material.
    And I want to follow up a little bit on what the Chairman 
had asked is in the last Congress the committee staff requested 
a briefing on low-dose radiation from your department regarding 
legislation dealing with low-dose radiation. And it's 
important, as we develop legislation, to understand the effects 
of and the risks of low-dose radiation either through a dirty 
bomb, how do we evacuate, how do we protect the people, as well 
as physicians who deal with this type of radiation.
    And as was mentioned earlier, and as I was made aware, that 
subsequent to that briefing where technical questions were 
answered, this employee was fired from your department. And, 
again, this briefing was organized through your Congressional 
Affairs Office.
    And I'm gravely concerned that--how can Congress do our job 
if we don't have timely and effective technical information 
which we rely on from agencies under the executive branch that 
we can effectively do our job not only from an oversight and 
investigatory authority that we have through the Constitution 
but also good legislation that represents the people, that we 
can effectively respond to these type of threats that we face 
or just the daily operation of using radiological material?
    What have you done in light of this to ensure that your 
employees are not intimidated from within to sharing truth and 
the information that Congress needs to be able to do our job 
that the American people expect us to do for them?
    Secretary Moniz. Well, thank you. If I may comment on 
Brussels first----
    Mr. Loudermilk. Please.
    Secretary Moniz. --because of course we all align with your 
initial statement. But I just would note that our Deputy 
Secretary was actually in Brussels on Friday discussing 
precisely these issues offered to our Belgian colleagues, an 
opportunity to come to our laboratories to see some of the 
technologies that could be used to prevent these things----
    Mr. Loudermilk. Thank you for that.
    Secretary Moniz. --which they said immediately, yes, and 
just days before this terrible, terrible event.
    I would also mention that March 31 and April 1, so end of 
next week I guess, we will host the Nuclear Security Summit 
here in Washington, which will address many of these issues.
    With regard to the low-dose radiation issue, first of all, 
I am trying my best to make sure that there's a culture of 
understanding, that we want to have clear statements of what 
are technical facts, as I said, and in this case--that employee 
is at work at the Department of Energy so----
    Mr. Loudermilk. So she has been rehired----
    Secretary Moniz. Correct.
    Mr. Loudermilk. --after being fired?
    Secretary Moniz. That is correct.
    Mr. Loudermilk. Okay.
    Secretary Moniz. So----
    Mr. Loudermilk. So at least there is some recognition----
    Secretary Moniz. Action was taken, correct.
    Mr. Loudermilk. Okay.
    Secretary Moniz. If I might add, on the substance, just to 
conclude on the low-dose radiation, I asked my Secretary of 
Energy Advisory Board to look at that. They came back and said 
the important issue, we're not the right group to look at this. 
We then charged the BER Advisory Committee to look at this. 
They will come back with a report this fall on what a 
restructured, effective program may look like.
    The reality is, as we all know, it's been a frustrating 
subject in terms of being unable to reach the conclusions that 
we would like to operationalize what is a hugely important and 
expensive issue for us, how one treats low-dose radiation. So 
we are actively looking at that. In the fall we'll have a 
report back.
    And I might add the cancer--this is a little bit of a 
stretch, but we can discuss it later--the cancer initiative may 
provide, through big-data analytics, one of the most effective 
ways of addressing the low-dose issue.
    Mr. Loudermilk. And thank you for what you're doing. And 
again, my concern goes back to--there may be a nuclear engineer 
on this committee. I am not one, and so therefore I rely 
heavily upon those that you employee to ensure that we do our 
job that the American people expect us to do. And things such 
as protecting against a dirty bomb, I can't think of anything 
that would be more high priority than us being proactive in 
that and from a legislative standpoint.
    And I hope that you agree that working between the branches 
of government is extremely important, that we have the access 
to the information, and when we request information, that we 
receive honest, true information that's comprehensive and in a 
timely matter to our job. Do you agree that----
    Secretary Moniz. Yes.
    Mr. Loudermilk. --we must do that? All right. Thank you. I 
yield back.
    Chairman Smith. Thank you, Mr. Loudermilk.
    The gentleman from Illinois, Mr. Lipinski, is recognized 
for his questions.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Welcome back, Secretary Moniz. It's great to see you again.
    I wanted to start out by asking about the Advanced Photon 
Source at Argonne National Lab. It's my understanding that the 
APS is slated for a major facilities upgrade and is the next 
project in line for an upgrade. So could you talk about the 
importance of upgrading the Advanced Photon Source and the 
importance, more broadly speaking, of maintaining our global 
leadership in light sources?
    Secretary Moniz. Yes, it is extremely important and, as you 
have said, we're on a systematic march towards upgrading our 
light sources. Just last year, we completed the Brookhaven 
upgrade for very high brightness. Our current project is on the 
coherent light source, so-called x-ray laser at SLAC, and we 
are in the early engineering phases now of designing the APS 
upgrade, which will provide much greater coherence in the 
beam--and it'll be an absolutely world-leading tool.
    So we're systematically upgrading our light sources, which 
are premier tools, the biggest drivers really of our user 
communities in this country. And I think, as you know, others 
may not, also spending about 40 percent of their time in the 
life sciences and making enormous contributions.
    Mr. Lipinski. Yes, so thank you for that, and it's 
important. As you said, we continue to move forward here.
    The second thing, as you know, an interest of mine is 
commercialization of DOE-funded research from universities and 
national labs. Last year, there were a couple of advancements 
on this front. First, the Office of Technology Transitions was 
tasked with supporting commercialization activities across the 
DOE; and second, the Lab-Corps program was created to 
accelerate the transfer of clean energy technologies from 
national labs such as Argonne to the commercial marketplace. 
Now, Lab-Corps is based on NSF's I-Corps model, and the program 
trains researchers on how to turn the discoveries into real-
world technology.
    As I mentioned, work going on at Argonne includes 
developing energy-efficient material for windows, processes for 
deionizing water, and devices for charging electric vehicles.
    So Lab-Corps just began the second round of training 
sessions. Could you give us an update on the Lab-Corps program 
and also on the activities of the Office of Technology 
Transitions?
    Secretary Moniz. Yes, thank you. And I hope the Committee 
recognizes that we apparently can listen to these suggestions 
moving forward in these directions. So number one is the 
establishment of the Office of Technology Transitions under 
Jetta Wong, and I think that is making tremendous progress in 
multiple dimensions, including, I might add, implementing the 
2005 Energy Policy Act call for a Technology Commercialization 
Fund. And that is approximately a $20 million fund specifically 
for commercializing laboratory technologies.
    I might say there is at least one difficulty that we would 
like to see addressed in that, and that is that currently, the 
$20 million fund is quite atomized by having the contributions 
to it siloed according to the program from which those funds 
came. And that leaves very, very small amounts, as opposed to 
what we might accomplish by further aggregation, so that's an 
issue with the Congress that we would need authorization to 
address that.
    I might also add in the Office of Technology Transitions, 
we just established--and in January hired a person to head--an 
energy-investment activity that will provide much greater 
transparency for all investors to be able to access our 
technologies laboratory and university grants, et cetera.
    Lab-CorpE and other specific programs such as a voucher 
program, as well we have in the budget, and there's a lot of 
enthusiasm at the laboratories for advancing these. We can get 
you some statistics then for the record if you'd like. But I'm 
very pleased that the focus on technology transfer has been 
elevated quite dramatically.
    Mr. Lipinski. Thank you, and I appreciate your 
responsiveness and the Department's responsiveness, and these 
are things that I think are important for us to work together 
on as we move forward, so take a look at----
    Secretary Moniz. Great.
    Mr. Lipinski. --what you had mentioned.
    Thank you. I yield back.
    Chairman Smith. Okay. Thank you, Mr. Lipinski.
    And another gentleman from Illinois, Mr. LaHood.
    Mr. LaHood. Thank you, Mr. Chairman.
    And Secretary Moniz, thank you for being here today and for 
your testimony.
    And we are proud in Illinois to have two really first-class 
national laboratories, the Fermi National Accelerator Lab and 
also the Argonne National Lab. And looking at how we--the 
research, technology, and innovation that's being done at these 
labs and how we ensure that we are getting that technology 
transfer information to the private sector, whether that's 
entrepreneurs, whether that's mature companies, how we do that 
and the potential barriers that are there, Secretary Moniz. Are 
you satisfied now we're doing all we can to, you know, engage 
in that process and further the private sector, or is there 
more to do there?
    Secretary Moniz. Oh, I think there's certainly more. I'm 
pleased that we are doing more, but there's clearly more to be 
done. The Energy Investment Center that I mentioned is part of 
that. That's another new step to providing the transparency.
    But also what I would say is what's maybe most important in 
the end is not a specific program but the clear recognition by 
the laboratory directors that technology transition is part of 
their responsibility. So I think if it's done at the 
laboratories with the commitment of the director, that in the 
end may be the most effective step.
    Mr. LaHood. And is it your view that that's something that 
can be internally done by your department or is there something 
you need from us to ensure that we continue to engage in this?
    Secretary Moniz. At a high-level we probably have the 
authorities that we need, but as I said earlier, something like 
the Technology Commercialization Fund--I already mentioned one 
problem, which is the atomization of it, the siloed nature, so 
that's something we would need Congressional action.
    And another issue is there is a--at a minimum I would call 
it a lack of clarity on cost-sharing requirements. And our 
General Counsel is interpreting them rather narrowly that we 
are going to require at least 50/50 cost-sharing. In that kind 
of a program it would probably be better to have more 
flexibility, as we do in applied energy programs to have, for 
example, a 20 percent cost-sharing. So there's a couple of 
places where Congressional action could be extremely helpful.
    Mr. LaHood. And can you give us a couple examples of 
success stories you've had in the last couple years here in 
reducing these barriers and success that we've seen in the 
private sector?
    Secretary Moniz. Well, I think that success means things 
actually happening, and if we go to Argonne, to pick an 
arbitrary laboratory, for example, the JCESR, the hub on energy 
storage, has had results get out into the automotive sector 
already. So that's a great example of technology transfer 
driven by the dialogue between the companies, including the 
companies in the region, obviously, with the Argonne 
leadership.
    Mr. LaHood. Yes. And I guess I would just say, you know, 
highlighting more things like that, reducing those barriers, 
you know, is, you know, something that we need more of, and the 
public seeing the direct benefits of taxpayer money being spent 
at these labs and kind of the fruitful results of that, you 
know, is going to benefit us all----
    Secretary Moniz. Yes.
    Mr. LaHood. --and so I would encourage more of that with 
the Department.
    Secretary Moniz. Thank you. And I might add that part of 
the communication is that coming up in--what's the date of Lab 
Day--I forgot.
    Anyway, assume coming up we will have here on the Hill Lab 
Day. I forget the exact date. And the focus this time is on 
science. We're rotating it, national security, et cetera, 
science, and that'll be an important part of the communication.
    Mr. LaHood. Thank you.
    Those are all my questions, Mr. Chairman.
    Chairman Smith. Thank you, Mr. LaHood.
    The gentlewoman from Connecticut, Ms. Esty, is recognized.
    Ms. Esty. Thank you, Mr. Chairman, and thank you, Ranking 
Member Lofgren, for holding today's hearing to review the U.S. 
Department of Energy's science and technology priorities within 
its budget request for 2017.
    Secretary Moniz, please first let me allow you to--
congratulate you on your excellent work in securing the 
historic climate pact in Paris just in the last few months. 
While it's only a first step, we must all work together to take 
action on climate change.
    There are a couple of topics I'd like to touch on. The 
first is on the U.S.-Israel Strategic Partnership Act which 
Congress passed and the President signed into law in late 2014 
establishing that it is a policy priority for the United States 
to pursue every opportunity to deepen our energy relationship 
with Israel. Managed by DOE with strong bipartisan support in 
Congress, the U.S.-Israel Energy Cooperation Program has set 
the stage for long-term strategic cooperation in the 
development of new energy technologies.
    Now, we know that Israel is a world leader in technological 
research and development with expertise in areas such as 
cleantech, water resource management, and cyber protection 
technologies that may be applicable to our own critical 
infrastructure.
    So a couple of questions: As DOE increases its investments 
in R&D, does the Department have plans to expand its current 
programs with Israel? And second, increased investment in R&D 
will also serve to improve cybersecurity in the electric power 
and natural gas subsectors. And how do you see this benefiting 
the region like the Northeast, as you know well, where the 
natural gas supplies are constrained during winter months?
    Secretary Moniz. Thank you. If I may, by the way, note 
April 20 is the day of Lab Day on the Hill for science.
    With regard to Israel, first of all, I'm happy to say that 
I will be traveling to Israel April the 2nd for a few days. 
I'll be hosted by Minister Steinitz, my corresponding Cabinet 
member, and we are definitely talking about increasing our 
collaboration in energy.
    But I might also mention certainly I'm very interested in 
carrying forward the discussions we've already started on 
looking at the energy-water nexus. Israel is obviously well-
known as a world leader in water management, all types of 
energy-efficient water management. It's going to be a great 
area for collaboration. So I'm not saying we have something 
mapped out yet, but that's an area that we will certainly be 
exploring.
    On cybersecurity more broadly--there was, of course, a 
discussion about some cyber issues in Israel not so long ago, 
but here in our program I want to emphasize we continue to have 
a very strong emphasis on cybersecurity. All the risks, frankly 
to the grid, cyber among them. I just want to emphasize that 
overall our budget is up, but in one program, the Office of 
Electricity, it went down. But I want to emphasize it's because 
with the fiscal year 2016, we finished four discrete projects, 
so kind of the fundamentals are there as well.
    We also have expanded dramatically our interaction with 
industry. The Deputy Secretary chairs an initiative there, and 
in fact we've taken the step of doing things like providing 
clearances to key members of that industry to be able to share 
information. So this is a huge, huge issue, we know, and we 
will continue to focus on that quite strongly.
    Natural gas, our Quadrennial Energy Review, both the first 
installment on energy infrastructure and the second installment 
that we are working on now, which is on electricity end-to-end 
has a strong look at this because, as we've seen, there have 
been projections, of course, of natural gas growing 
dramatically in the energy sector. The growth has been even 
faster than anticipated, and indeed, in 2016 for the first time 
the EIA at least projects that natural gas will have a higher 
market share than coal over the entire year. This is an 
incredible change.
    Now, in looking at that, the QER analyses, interestingly 
enough, say that the scale of build-out of the transmission 
infrastructure to manage this growth actually does not have to 
be any bigger than the current rate, the current rate of build-
out. Partly, that's because of the geographical diversity now 
of the sources.
    However, there are localized issues--you mentioned New 
England--that's the prime example where we continue to work on 
the constraints there. There is some development of increasing 
capacity, but that's one where we have to keep an eye out.
    Ms. Esty. Thank you. And I'll follow up more on the 
desalination efforts in the proposal in the budget on that 
and----
    Secretary Moniz. Yes, we have a de-sal hub proposed in the 
budget, yes.
    Ms. Esty. Thank you very much, and I yield back.
    Chairman Smith. Thank you, Ms. Esty.
    And the gentleman from Texas, Mr. Weber, is recognized for 
his questions.
    Mr. Weber. Thank you, Mr. Chairman.
    Secretary Moniz, thank you for being here. I'm glad to hear 
about the report of natural gas actually replacing coal in the 
marketplace or leading--having more of a market share. As 
Chairman of the Subcommittee on Energy, that's important to us.
    Do you think, just from a practical standpoint--so natural 
gas and nuclear for that matter, I guess, would be labeled as 
one of the more cleaner energies, I guess, for lack of a better 
term? Would you agree with that?
    Secretary Moniz. Absolutely.
    Mr. Weber. Good. As you probably know, the Golden Pass LNG 
plant is actually in--well, you may not know it's in my 
district--and it's waiting to export, waiting on permits. The 
first DOE permit was first filed in 2012. Now, this project 
represents billions of dollars of private investment and 
thousands of jobs in Texas and in the nation, and you've 
already said natural gas is coming up in the marketplace. I'm 
glad to hear that.
    FERC--we want to get that permit expedited. They have to 
have a permit from FERC. So all of these LNG plans, I would 
argue, are critical. Will you commit to working with me to 
advance critical infrastructure projects like this, help DOE to 
move those projects along and in fact provide timely updates to 
me and my staff on those applications and where they stand?
    Secretary Moniz. Oh, certainly. We've been, I think, very 
transparent and, quite frankly, processing things quite fast 
once they have their FERC EIS because----
    Mr. Weber. Do you think we can get that done in 30 days 
after their EIS is approved?
    Secretary Moniz. Well, yes. So the last two years we've 
been getting things out between day timescale to month 
timescale. So----
    Mr. Weber. Okay.
    Secretary Moniz. --that's our intent.
    Mr. Weber. Well, that's----
    Secretary Moniz. And, of course, the FTA license was 
granted in 2012. It's the non-FTA that's now on the----
    Mr. Weber. Right, so you're going to work with us and we 
can get those as quickly as possible because, obviously, we'd 
like to take--we would like to take advantage of that market 
share increase that you're talking about.
    Secretary Moniz. I believe FERC's docket shows the EIS 
coming up in the summer for this--
    Mr. Weber. Okay. Well, that's what we want to hear.
    I'm going to jump over to nuclear here now and put my 
nuclear hat on. H.R. 4084 is a bill that we passed out of this 
committee. Chairman Smith and Ranking Member Johnson were 
cosponsors of it, as myself and many others on the Committee 
for that matter. And what it does is it--are you aware of that 
bill? It instructs the DOE to focus on the next round of 
nuclear generators research--I'm sorry, nuclear reactors 
research and to be able to partner with private industry to 
have the site developed so that we can actually come up with 
the next--are you familiar with 4084?
    Secretary Moniz. In general terms, not----
    Mr. Weber. Okay.
    Secretary Moniz. --in specifics.
    Mr. Weber. Okay.
    Secretary Moniz. Right.
    Mr. Weber. So on February 29 it passed the House by voice 
vote. On January the 28th, the Senate language passed as an 
amendment by recorded vote of 87 to 4. Now, I bring those 
numbers up because that's a pretty substantial backing 
bipartisan bill that we would argue, known as the Nuclear 
Energy Innovation Capabilities Act.
    So do you know about the bill? And I guess I'll put you on 
the spot. Do you support that kind of legislation?
    Secretary Moniz. Well, again, I don't know the specifics of 
the bill, but generally speaking, yes. I believe that nuclear 
and innovation in nuclear fission technologies is very 
important.
    Mr. Weber. Sure, but you agreed with me earlier or you 
actually stated an opinion that natural gas and nuclear is 
among the cleaner energies.
    Secretary Moniz. Yes, yes--no, so I--yes, I totally support 
the general objective----
    Mr. Weber. Right.
    Secretary Moniz. --for sure, yes.
    Mr. Weber. So if we can bring in the next round of 
reactors, that would be advantageous to us.
    Secretary Moniz. And we did provide up to $80 million for 
molten salt and for pebble bed development, for example, in 
addition to supporting the ongoing work with the small modular 
reactor.
    Mr. Weber. Right. Well, the DOE Office of Nuclear Energy 
supports civilian nuclear R&D for energy and we would argue 
national security needs. Now, based on what happened and what's 
been happening around the world--and Representative Loudermilk 
brought it up earlier what happened in Brussels. We would argue 
that we need to be very intense and focused on our national 
security, and this is one way that if we're in the lead, 
nuclear speaking, then we can help with nonproliferation. So I 
would say that for the DOE's, I hope, point of view this is an 
important bill that would get you all's support.
    Secretary Moniz. Yes. Again, I don't know the specifics of 
everything----
    Mr. Weber. Sure.
    Secretary Moniz. --in the bill, but generally speaking, 
absolutely.
    I might also add on Friday in China, we dedicated a Center 
of Excellence on Nuclear Security----
    Mr. Weber. Okay.
    Secretary Moniz. --that addresses some of those questions 
that----
    Mr. Weber. Well, I'm glad to hear that. Let me jump over 
real quick to, I think, what one of the other members brought 
up, the Iran nuclear deal. And even though I wasn't supportive 
of that deal and I would say--I forget the number--70 percent 
of Americans were not in supportive of that deal, that deal was 
struck. And so it's important that we maintain the parameters 
of that deal and maintain a strict oversight on the nuclear 
deal. And I understand you were instrumental in negotiating the 
deal, is that right?
    Secretary Moniz. I was certainly heavily involved, yes.
    Mr. Weber. I'm sorry?
    Secretary Moniz. I was certainly heavily involved.
    Mr. Weber. You were heavily involved so you were heavily 
invested?
    Secretary Moniz. Well, I did spend 19 days straight in 
Vienna to----
    Mr. Weber. Okay. Well, we want to make sure that you keep 
our committee informed with any information on briefings that 
we need when you think that deal has been--that the tenets of 
that deal have been broached. Will you commit to do that for 
us?
    Secretary Moniz. I have to say the State Department leads 
this with DOE supporting them in terms of keeping the Congress 
informed, including on a classified level.
    Mr. Weber. Do you have any oversight purview over that 
deal? I mean, you're the ``nuclear expert,'' spent 19 days 
there. Are you----
    Secretary Moniz. By the way, along with Secretary Kerry.
    Mr. Weber. Okay.
    Secretary Moniz. We were both there for 19 days. The----
    Mr. Weber. Did Secretary Kerry go to MIT? I'm just asking.
    Secretary Moniz. Not yet.
    Mr. Weber. Okay. You're working on him already?
    Secretary Moniz. Yes, we're working on it. Right.
    Mr. Weber. Okay.
    Secretary Moniz. We did both go to Boston College, however.
    Mr. Weber. Okay.
    Secretary Moniz. But the----
    Mr. Weber. Do you have any kind of oversight on that?
    Secretary Moniz. Yes, so, again--so the Department of 
Energy is the core team in the implementation phase, so the 
answer is yes, and I personally remain engaged.
    Mr. Weber. Okay. So you will come back to this--if you see 
anything that adversely affects that deal and of course our 
national security, you would come back to this committee?
    Secretary Moniz. We--again, through the state-led process 
we will keep the Congress informed, including providing regular 
reports typically through the Foreign Affairs Committee, but I 
think it's open to all Members of Congress.
    Mr. Weber. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Weber.
    The gentlewoman from Massachusetts, Ms. Clark, is 
recognized.
    Ms. Clark. Thank you, Mr. Chairman, and thank you, 
Secretary Moniz, for your leadership and for being here today.
    I want to go back to Mission Innovation. And in Paris, the 
United States was one of 20 countries that agreed to double 
their support for clean energy research and development 
activities over the next five years, as you put it, creating a 
highly leveraged opportunity for us. And the President's fiscal 
year 2017 budget lays out his plan to do just that, but we have 
grave concerns about the ability to get that budget through the 
House and Senate this year.
    How important is it that we meet that goal of doubling our 
clean energy R&D over the next five years, and how important is 
it to where we stand with climate change?
    Secretary Moniz. I think it's very important on multiple 
counts. One, it's important objectively as, again, the American 
Energy Innovation Council pointed out. They recommended a 
tripling.
    Ms. Clark. Yes.
    Secretary Moniz. We propose this doubling. Number two is I 
would say that, as is in many things, you know, the United 
States has a special role in leadership, and if we fall down in 
meeting our objective, I think that would have significant 
deleterious consequences much more broadly in this highly 
leveraged situation with other countries and with the private 
investors.
    And third, I think that, again, even without going into the 
specifics of the Paris agreement, et cetera, it is simply a 
fact that essentially every country in the world is committed 
to pursuing lower carbon fairly aggressively. That means 
multitrillion dollar markets are going to be developing even 
faster, and we want to keep our innovation edge to take 
advantage of those markets.
    Ms. Clark. I think that is a critical point, and also going 
back to the end of your second point, with the public 
investment we saw with Bill Gates leading an effort but, I 
believe, 28 investors from 10 different countries, how--if we 
don't meet our goals on the public investment side, what do you 
think will happen to that private investment?
    Secretary Moniz. Well, again, I think it will be very, very 
hard to sustain because this was viewed as two complementary 
initiative. They're independent in principle but two 
complementary initiatives. We open up the innovation pipeline. 
They are prepared to put billions in to take advantage of that 
expanded pipeline.
    Ms. Clark. And what do you think--thinking of American 
leadership abroad, you know, if we don't meet this, what do you 
think will happen with the other countries' commitments? Do you 
think they will continue on, leaving our markets, our 
innovation behind, or do you think we'll have a destabilizing 
effect?
    Secretary Moniz. I think some will and probably some won't, 
but some of the bigger ones, to be perfectly honest, I think if 
you look at China's initial publications of its 13th five-year 
plan--again, I was just there last week, spoke with many 
government officials--the first characteristic, all of them 
mentioned about the five-year plan was the emphasis on 
innovation. So they are going to be pushing on science and 
engineering innovation as a foundation of what they are doing 
in the next year. So they're going to go ahead in my view as 
one example.
    Ms. Clark. Yes.
    Secretary Moniz. And that's just an example of why we need 
to maintain competitive edge, which is innovation.
    Ms. Clark. Yes. Well, we certainly believe that in 
Massachusetts, and I thank you for your efforts on this, and we 
look forward to working with you and also on the Regional 
Innovation Centers. I think that will be a critical piece to 
establishing our place in this marketplace not only because 
climate change has such a huge effect on our economy and our 
resiliency, but also because it is an area where we can lead 
and really be--create such a viable market for clean energy 
products and technologies.
    So thank you, and thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Ms. Clark.
    And the gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Mr. Secretary, thank you very much. It's 
been a joy over the years actually having this interaction----
    Secretary Moniz. Quite a few years.
    Mr. Rohrabacher. Yes, it has been.
    Secretary Moniz. Right.
    Mr. Rohrabacher. Was your hair gray when it started?
    Secretary Moniz. I have no comment. I could--no, I won't 
dare to ask the same question.
    Mr. Rohrabacher. Mine wasn't gray.
    Just a couple of thoughts here. The--when several of my 
colleagues on the other side of the aisle mentioned clean 
energy, let's note that there is a differentiation between 
clean energy with a definition that's aimed at stopping global 
warming versus clean energy that is based on human health.
    CO<INF>2</INF>, which is the target of global warming-
focused energy reforms, CO<INF>2</INF> is not in any way a 
threat to human health. However, NOx, SOx, and other things in 
the air, trying to get them out of the air is certainly 
important to people's health and especially those of us who 
live in urban areas, as I do, and have children are very 
concerned about those pollution factors. So we do want clean 
air.
    And I want to mention the nuclear energy issue to you in a 
moment, but let us note that when you mentioned earlier in your 
testimony about the positive nature of going from coal to 
natural gas, which is, I think, a very big step forward for 
both health and global warming considerations, let us just note 
that that would not have happened if the administration, while 
trying to stop the production of CO<INF>2</INF>, would have had 
its way in terms of disrupting the evolution in fracking. 
Fracking has given us, has it not, a major increase in the 
production of natural gas? And so that's if we get in the way 
of fracking and we get in the way of basically having a cleaner 
air, both for global warming and for people's health. Would you 
like to comment on that?
    Secretary Moniz. Well, first of all, of course it's a fact 
that horizontal drilling and hydraulic fracturing is what's 
opened up tremendous amounts of natural gas and oil production 
in this country.
    Mr. Rohrabacher. Right.
    Secretary Moniz. But I guess I don't quite understand the 
administration comment you made in the sense that, frankly, the 
administration has been supportive of these developments with 
natural gas. Obviously, there are environmental issues to 
address. A lot of those are being done in the states. For 
example, Oklahoma has been very concerned over the seismic 
issues, which are not from fracking but from water disposal----
    Mr. Rohrabacher. Right.
    Secretary Moniz. --which is where that is coming. So I 
think that is a balance between state and federal----
    Mr. Rohrabacher. Well, we believe someone has looked at 
that pipeline decision as being something that was based--
fundamentally opposed to fracking and--because that's where 
the--that extra oil was going to be coming from.
    Let me ask you about nuclear energy here. It has been of 
concern to me that as we move forward with--and, by the way, I 
would suggest that's the one area that people on both sides of 
the global warming issue should be able to agree upon.
    But from the Department of Energy under your leadership I 
have not seen the shift away from the light-water reactors, 
which I believe are naturally dangerous. And we--I've been told 
and correct me if I'm wrong--is we do have the capability of 
the building reactors now, especially small modular reactors 
that are not based on light-water technology. Why are we not 
focused on getting away from light-water technology and putting 
our money in building a prototype from--of one of these small 
modular reactors that is not light-water reactor?
    Secretary Moniz. Well, first of all, of course as you know, 
we are supporting a light-water reactor small modular reactor--
--
    Mr. Rohrabacher. Right.
    Secretary Moniz. --to go to design certification this year 
at the NRC. But I do want to add that even though it's a light-
water reactor, the safety characteristics are excellent. So we 
believe that is a very viable and safe----
    Mr. Rohrabacher. Safer----
    Secretary Moniz. --technology.
    Mr. Rohrabacher. --but not necessarily safe.
    Secretary Moniz. Well, it's basically passively safe. Now, 
one of the reasons for that focus, our initial small modular 
reactor focus was on light-water reactors for the reason that 
those are the ones that could move most rapidly to a deployment 
because, frankly, it's also on the regulatory side the NRC has 
got all the apparatus for licensing now.
    Having said that, we just announced a month ago I think 
roughly two awards, two consortia involving companies and labs, 
et cetera, one on molten salt, which is a design originated in 
Oak Ridge in fact some years ago, and another on pebble beds--
--
    Mr. Rohrabacher. Right.
    Secretary Moniz. --a pebble bed reactor. So we are moving 
out on those two alternative technologies.
    Mr. Rohrabacher. I appreciate that, and I would just 
suggest that the money that we're spending on light-water 
reactors is based on the past and we need to look to the 
future, and I think that is not based on light-water reactors.
    Thank you very much, Mr. Secretary.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    And the gentleman from California, Mr. Swalwell, is 
recognized.
    Mr. Swalwell. Thank you, Secretary Moniz, for appearing 
before the panel.
    And just a question about--in multiple prior fiscal years, 
Congress has directed DOE to diversify its bioenergy program 
and specifically support the development of technologies that 
hold the promise of producing energy from municipally derived 
biosolids. I believe your office is familiar with this because 
the Office of Energy Efficiency and Renewable Energy, EERE, has 
yet to follow through on these directives. And our office and 
our constituents in the bay area has found this a little bit 
frustrating and troubling.
    And my staff has been told that finally a DOE funding 
announcement for projects promising to develop energy from 
municipally derived biosolids is forthcoming this March or 
April. First, is that correct, and can you commit today that 
such a funding announcement will be made in late March or 
April? And what type of total budget is planned for the funding 
announcement?
    And also, I did want to separately thank you for the very 
hard work you did and the participation with our national 
laboratories on the Iran nuclear agreement.
    Secretary Moniz. Thank you. Thank you for that.
    First of all, the question of the biosolids, there have 
been solicitations where that has been an option but not 
singled out and then not always selected. That is correct that 
there will be solicitations coming forward. I don't know the 
exact day. We can get back to you on that. That will have 
biosolids as the research topic. It will also include some SBIR 
solicitation for biosolids.
    Mr. Swalwell. Great. And do you have any idea as to what 
the total budget for what the funding announcement could be?
    Secretary Moniz. I think there are three--I don't have an 
exact number. There were going to be three pieces that total 
roughly $20 million, but I don't--I think the exact breakout of 
that will depend upon the three awards.
    Mr. Swalwell. Great. Thank you.
    And I yield back.
    Mr. Rohrabacher. [Presiding.] Mr. Hultgren.
    Mr. Hultgren. Thank you, Chairman.
    Thank you, Secretary, always so good to see you and 
honestly do appreciate your work and your passion, especially 
in our labs. As you know, that's a special passion of mine.
    Secretary Moniz. See you on Lab Day.
    Mr. Hultgren. Yes, it's going to be great. And boy, our 
labs are excited. I know that's going to be very important, so 
thank you.
    Along with laboratories, also passionate about basic 
scientific research, which the Office of Science is doing to 
promote innovation and the energy future where America can 
lead. We had a good meeting last year with the Labs Caucus 
where you talked about the Breakthrough Energy Coalition and 
ways which we might be able to work together with Mission 
Innovation. I'd hoped the Office of Science would take the lead 
on this.
    While I think the gimmicks with the mandatory spending 
throughout the President's budget were a disappointing reversal 
on his negotiated budget with Congress, I hope there are still 
some places we can work together.
    The Department is asking for $1.2 billion in new spending 
throughout the Science and Energy programs. The Office of 
Science, with the requested increase of $225 million, is only 
about 18 percent of this requested increase. EERE was 68 
percent of your requested increase. Quite honestly, I think 
this is shortsighted.
    AAAS estimates that across the board the President's budget 
cuts basic R&D by 2.3 percent while increasing applied research 
by 2.8 percent. Maybe you all managed to save some shortsighted 
cuts, but I know you can't speak to your deliberations with 
OMB.
    So my first question is about how we can make our Office of 
Science programs better aligned with the private sector be it 
the Breakthrough Energy Coalition or anyone else. If OMB passed 
back your budget request and told you to realign your increases 
so that EERE and Office of Science were flipped, how would you 
propose to handle nearly $829 million in new spending? And what 
do you think personally the labs need to do to be more nimble 
and accessible to the outside?
    Secretary Moniz. Well, first of all, let me just comment. 
I'm not aware of the specifics of this AAAS scoring, but--and 
there may be also a labeling issue for--I just don't know, but 
for example, part of the proposal would be to add--even in its 
first year--five new Energy Frontier Research Centers. I would 
call that use-inspired basic research. I don't know how that is 
scored in there.
    But I've said earlier that in our increase, our intent 
certainly is to weight more towards the earlier stages of R&D, 
and science plays an important role in there. There are many 
other proposals besides the EFRCs, but I also want to single--
ARPA-E is also very, very important, and has tremendous 
results, I think. So anyway--so we will be having strong focus 
there.
    I also might add that some of the proposal, for example, on 
the regional centers was placed in EREE even though it's across 
the board. It's not only efficiency and renewables. So we've 
already talked with some in Congress about the need to find a 
different budget structure for that to reflect the reality.
    As far as the labs being nimble, well, I think for one 
thing is----
    Mr. Hultgren. Can I ask a quick question real quick? So why 
didn't some of the basic energy science programs get similar 
increases to EERE?
    Secretary Moniz. Well, again, there are complicated 
dynamics in there. I think what we did is we put in specific 
increases that we thought made a lot of sense, including like 
the EFRCs and BES, which was one particular area.
    But again, look, obviously we're here to discuss with 
Congress what is the right mix there. We do want to increase 
energy R&D, and we'd like the increases, as I said, to be 
weighted towards the earlier stages.
    Mr. Hultgren. I just have about 45 seconds left. Let me get 
to one other thing if I could real quick, and we'll keep our 
conversation going. So thank you.
    I'm not sure if you remember I represent Fermilab. Just 
kidding.
    Secretary Moniz. Do you?
    Mr. Hultgren. I'm just kidding. You hear that a lot for me, 
but I'm so proud of the great work that they do and really am 
honored to be able to represent them. And I do want to thank 
you for the time that you've made available to me over the last 
months and years.
    But I want to just ask you how do you see the 
implementation of P5 going, and how have efforts in creating 
international collaboration out of LBNF been going? Are we 
meeting, exceeding, or behind your expectations in getting 
international commitments?
    Secretary Moniz. So, first of all, LBNF and P5 LBNF, strong 
emphasis, it's the centerpiece. We're on the ramp up for LBNF 
and--which does remind one that we hope we don't end up in CR 
land again because things like these new projects--things that 
go up and go down don't go up in the CR world, so let's hope we 
can get to a budget that has priorities in it.
    In terms of international, I think the discussions are very 
encouraging. I've had discussions myself with two major 
countries in the last month, nothing you sign on the dotted 
line yet, but I think it's going well. And of course a critical 
piece is going to be the whole work with the EU and CERN----
    Mr. Hultgren. Yes.
    Secretary Moniz. --as a lead investor. But I'm very 
optimistic. There's a lot of excitement about this and this is 
going to be a great good.
    Mr. Hultgren. Well, thank you. That means a lot to us. I 
know it means a lot to the physics community. But any way we 
can be helpful, I do know this is something that pulls us 
together.
    Secretary Moniz. Great.
    Mr. Hultgren. Ranking Member Foster, Bill Foster and I and 
others obviously have met with you and our delegation about the 
importance of this and want to thank you for your role, and any 
way we can help with that, we certainly want to do that. My 
time is well past expired.
    Secretary Moniz. Thank you.
    Mr. Hultgren. Thank you.
    Chairman Smith. Thank you, Mr. Hultgren.
    And the gentleman from Illinois, Mr. Foster, is recognized.
    Mr. Foster. Thank you, Mr. Chairman.
    Thank you, Secretary Moniz, for appearing today to discuss 
DOE's science budget. And I look forward also to having 
hearings on the Republican budget proposal. But I also would 
like to thank Secretary Moniz for his work on the Iran nuclear 
deal.
    I have personally found the DOE extremely supportive in 
responding to Member requests for detailed briefings on this. I 
think I had more than a dozen classified briefings on this, 
many of them individual briefings, and I found--where I've had 
access to the DOE experts in weapons and nonproliferation. And 
so I just want to say that we really got our question answered 
in whatever detail we ask, and I want to thank you for that.
    I'd also like echo the sentiments of my colleague Mr. 
Hultgren and take the opportunity to thank you once again for 
meeting with the Illinois and South Dakota delegations of both 
the House and Senate to reiterate your support for the Long-
Baseline Neutrino Facility. Your support for this is very much 
appreciated. I was somewhat disappointed to see that LBNF 
received less than they need to to move forward at full 
schedule, but I trust that you and DOE are still supportive of 
this project?
    Secretary Moniz. Oh, yes, and my impression is that the 
budget proposal will allow them to move forward quite nicely.
    Mr. Foster. Yes, the civil part was, I think, adequately 
funded. There was some--I think some of the approval is pending 
the international contribution----
    Secretary Moniz. Oh, yes, but again, Congressman Foster, no 
bones about it, I mean, this is a high-priority project, the 
highest-priority project certainly in particle physics.
    Mr. Foster. Yes.
    Secretary Moniz. And if I may add something----
    Mr. Foster. So your comments on the CR, I think, are very 
relevant----
    Secretary Moniz. Yes.
    Mr. Foster. --as well.
    Secretary Moniz. Yes. And if I may add, I just want to 
thank you for the interest you took in the Iran deal. Using 
your physics background was really important, and we really are 
appreciative.
    Mr. Foster. Thank you. I also want to thank you for your 
supportive words about Argonne's Advanced Photon Source to Mr. 
Lipinski, and I look forward to continuing to work with my 
colleagues to make sure that the APS upgrade has the necessary 
funds to complete the upgrade on time.
    I was pleased to be joined by 11 of my colleagues, 
Democrats and Republicans, on a letter to the Appropriations 
Committee in support of full funding for the APS upgrade, so 
that's on our radar screen as well.
    Let's see. One thing having to do with--you know, there's 
this report that's due out, I think, in May having to do with a 
way forward on ITER. And so I was wondering what sort of plan--
we could find ourselves in one of two places on that, one--a 
positive indication of the letter will, I think, cause most 
people to think that the amount of money we're spending on ITER 
is too low to, you know, complete the project on the proposed 
schedule.
    On the other hand, if we decide to withdraw, I think that 
some money will have--rapidly have to be reprogrammed. And so 
in the context of a CR, that could be very painful either way 
you have to adjust it. I was wondering if there's contingency 
planning underway in DOE to understand how you'd respond to 
this?
    Secretary Moniz. I am just, in fact, kicking off exactly 
that kind of planning for the two possible directions because 
frankly, we're going to be quite compressed in time with the 
technical report and review in April and then the May 2 report 
due to the Congress. So I think we're going to have to stay 
close on this and respond appropriately.
    Certainly going forward, as you implied, the U.S. 
obligation of roughly nine percent of the project for both 
capital and operating is likely to require, you know, a 
significant increase in the scale of the fusion budget.
    Mr. Foster. And now to----
    Secretary Moniz. If one goes forward, I mean.
    Mr. Foster. And now to change subjects rather 
significantly, how much effort is being put into the use--to 
the prospect of using naval propulsion systems with, say, 20 
percent enriched uranium as a way to really--you know, if that 
became the international standard for things like naval 
propulsion? It would be very positive for nonproliferation. And 
how much effort are we putting into that?
    Secretary Moniz. I would say modest. It is being looked at, 
but it's in the early stages frankly because there's a major 
focus on, first, the new power plants for the Ford-class 
aircraft carriers, those are now done. The first one went 
critical last year, and the Ford will sail in the next few 
months. And now there's also the power plant for the next--the 
Ohio-class replacements to submarines----
    Mr. Foster. So are there alternative----
    Secretary Moniz. Yes.
    Mr. Foster. --designs being developed for the use of less 
enriched uranium or is that not likely to happen?
    Secretary Moniz. I would say there's early-stage work for a 
future generation potential LEU power plant.
    Mr. Foster. Okay. Well, thank you.
    I guess my time is expired, and I yield back.
    Chairman Smith. Thank you, Mr. Foster.
    And the gentleman from Arkansas, Mr. Westerman, is 
recognized for his questions.
    Mr. Westerman. Thank you, Mr. Chairman, and thank you, 
Secretary, for being here today.
    In the budget request for the Energy Efficiency and 
Renewable Energy, the proposed budget for the bioenergy program 
is increased by 24 percent and is largely focused on research 
and development on a drop in biofuels and algae feedstocks to 
lower the cost of biofuels without increasing the cost of food 
or disrupting agriculture.
    While the budget mentions the Biomass Research and 
Development Board, the collaborative effort with the U.S. 
Department of Agriculture and U.S. Department of Environmental 
Protection--or the Environmental Protection Agency to make sure 
efforts made across the government are coordinated, there is no 
mention of collaboration with the Forest Service to assess the 
biomass potential for our forests.
    So I've got a forestry degree and an engineering degree, so 
forestry and energy are two things that I like to talk about. 
And if we look just on federal lands last year, we had ten 
million acres of forest go up in smoke. If you put that on an 
energy equivalent using Forest Service data, that's a lot of 
BTUs converted back. And to put it in terms of something we 
understand, it's about 26 billion gallons of gasoline is the 
equivalent of the energy that went up on our national forests. 
That's about 19 percent of all the gasoline used in our country 
each year.
    So I'm going to go out to the Berkeley Lab and visit it 
later this week. I'm looking forward to that, and I hope 
they're going to tell me they're doing a lot of research on 
forest biomass to drop in fuels. But has the Department 
explored working with the Forest Service or our research 
universities to incorporate forest biomass into the DOE 
research and development portfolio?
    Secretary Moniz. Our program does work with the Forest 
Service on woody biomass. I'd have to check this, but I think 
we are spending something around $20 million in the woody 
biomass area. I'll have to check that. A large focus is on 
combustion, and I think co-firing and these kinds of things, 
some work on conversion to biofuels, but I can get back to you 
with a more detailed answer.
    But we do work with the Forest Service. We have a woody 
biomass program, and I'll get you the details.
    Mr. Westerman. And I'm familiar, you know, making pellets 
out of wood, which is not the most efficient way to use it----
    Secretary Moniz. Right.
    Mr. Westerman. --maybe, but if we're doing research on any 
kind of biomass, it seems like, you know, just on federal lands 
we had ten million acres burn up, and that doesn't even start 
to touch the amount of thinning that needs to be done on our 
federal forests. If you throw in private lands, the potential 
for a fuel source if we could come up with a feasible way to 
convert that to--or to a liquid fuel----
    Secretary Moniz. Liquid fuels, yes.
    Mr. Westerman. --it's tremendous. So it seems to me like it 
would be prudent to put more money into research biomass to 
biofuels.
    Secretary Moniz. Well, I was just told that, yes, $22 
million in woody biomass so--but why don't we get back to you 
with the program specifics.
    Mr. Westerman. Okay. I appreciate that.
    I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Westerman.
    And the gentlewoman from Oregon, Ms. Bonamici, is 
recognized for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Secretary Moniz, welcome back to the Committee.
    Secretary Moniz. Thank you.
    Ms. Bonamici. My State of Oregon is a leader in the effort 
to establish a marine renewable energy industry in the United 
States, and we're proud to host the Department of Energy-funded 
Northwest National Marine Renewable Energy Center that's co-
managed by Oregon State University, the University of 
Washington, and the University of Alaska Fairbanks. The center 
is working with the national labs and private sector technology 
developers to provide research and testing capabilities.
    In addition, Oregon State University is developing a DOE-
funded offshore wave energy testing facility so innovators in 
the United States will have access to a domestic testing 
facility rather than going overseas.
    Now, I understand that the DOE estimates that up to 20 
percent of the electricity requirements of Oregon, along with 
California and Washington, could come from marine renewable 
energy resources. In places like Alaska and Hawaii, that could 
be up to 100 percent.
    Over the years, the wind and solar industries have received 
substantial and ongoing federal research and demonstration 
funding support. That's gone on for decades and it's resulted 
in the maturation, cost competitiveness, and rapid development 
and deployment of these technologies. The marine energy 
industry needs the same kind of sustained federal assistance to 
help private companies have that certainty they need to develop 
promising technologies that are really on the verge of 
commercial viability.
    So, Mr. Secretary, I've been an ongoing supporter of water 
power and the programs, so I've led appropriations letters and 
amendments requesting increase support for research.
    The fiscal year 2016 omnibus bill called for the creation 
of a new Water Power Technologies Office, so will you please 
provide an update on the efforts underway to set up the office 
and select a Director?
    And then also I wanted you to also address this issue. I 
appreciate including in the funding for fiscal year 2017 a 
request to continue the construction of an offshore wave energy 
test facility, but my understanding is that the amount of 
funding proposed by the Administration, along with the cost-
share requirements, is not enough to construct a robust and 
sufficiently sized facility.
    So will you please also elaborate on the budget proposals 
requested funding level? Going forward, will the Department 
participate in discussions with interested stakeholders to 
develop a plan that will truly ensure successful deployment of 
this very promising wave energy test facility?
    Secretary Moniz. I think the answer is yes, certainly to 
the last question. So, as you indicated, I think the budget for 
marine and hydrokinetic is about a 25 percent increase proposed 
within the open water test facility as a central piece of that. 
Certainly my understanding is that that has been developed in 
considerable discussion with industry stakeholders in terms of 
what are these test requirements.
    In terms of the scale, I think the issue is that this 
budget in fiscal year 2017 would support the design phase 
leading them to a kind of go/no go decision in terms of actual 
construction. That's my understanding, but why don't I clarify 
that and will get back to on that?
    Ms. Bonamici. I appreciate that. And then was that in 
response to the Water Power Technologies Office?
    Secretary Moniz. Oh, again, if I may get back to you for 
the record on that because----
    Ms. Bonamici. Sure.
    Secretary Moniz. --to be honest, I'm not quite sure where 
that stands.
    Ms. Bonamici. All right. Thank you very much, Mr. 
Secretary, and I yield back.
    Chairman Smith. Thank you, Ms. Bonamici.
    The gentleman from Texas, Mr.----
    Secretary Moniz. Oh, I'm sorry. I was just given a note 
from--by my staff, if I may, that an announcement just went out 
for a new Director hiring for the water power program.
    Ms. Bonamici. Thank you very much.
    Secretary Moniz. I wasn't aware that. Thank you.
    Chairman Smith. Okay. The gentleman from Texas, Mr. Babin, 
is recognized.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman. And thank 
you, Mr. Secretary, for being here.
    My question regards the fossil R&D budget proposal, which 
included a $240 million reduction of funds from the Clean Coal 
Power Initiative, or the CCPI projects to meet the total budget 
requirements for fiscal year 2017. This effectively pulled the 
remaining funding for the Texas Clean Energy Project, or TCEP, 
a coal gasification project with longstanding bipartisan 
support.
    At the same time the budget touts Mission Innovation funds 
within the fossil R&D program as ``doubling federal clean 
energy research and development investments.'' Does the 
administration no longer consider CCPI projects like the Summit 
Power Group's Texas Clean Energy Project 400 megawatt coal 
gasification plant as a ``clean'' energy? Isn't this just the 
sort of project that is exactly what the administration 
promised would be the result of Mission Innovation?
    It is my understanding that the company had every 
indication from DOE that they were moving forward, only to be 
told as the budget was released that the entirety of the 
remaining funding for the project was being repurposed in this 
year's proposal.
    I'm sure that you're aware that the Texas delegation sent 
out a bipartisan letter to you last week asking for specifics 
on the Department's interactions with TCEP. And without 
objection, Mr. Chairman, I would like to enter this letter into 
the record.
    Chairman Smith. Okay. Without objection, so ordered.
    [The information appears in Appendix II]
    Mr. Babin. And can you provide any additional information, 
Mr. Secretary, on why this decision was made with practically--
virtually no notice?
    Secretary Moniz. Yes, sir. First of all, I want to 
emphasize this was a programmatic choice, but you asked several 
questions. Number one is, yes, this is a Clean Energy Project, 
as are all of the carbon capture utilization and sequestration 
projects.
    Number two, we remain committed to having a strong program 
in this arena. And in fact, there are three large-scale capture 
projects that are either operating already or will be operating 
two more within a year. That includes the Petra Nova project in 
Texas with a coal combustion plant.
    The issue with the Summit project, the TCEP project, is 
that frankly, after a long time of us trying to support them--
because, by the way, the program and I think this is a good 
project. I mean, it's--conceptually, it's a great project. The 
trouble is they've been unable to meet many of their key 
milestones.
    This discussion has been ongoing. They have had, I don't 
know, five or so transfers of phase 2 funding to phase 1. The 
program has gone out of its way to help. I personally was 
recruited to meet with the Chinese Exim Bank head twice. The 
program met in December with the CEO of the program. They asked 
for a financial plan. It was not forthcoming, and the program 
finally decided it was time to move on, giving, however, a no-
cost extension to May to still give some time for the project 
to try to reach its milestones.
    So I think this has been an ongoing, longstanding 
discussion, and the fact of the matter is critical milestones 
are way overdue and are still not met.
    Mr. Babin. Okay. Well, I hear that, but one concerning 
thing is that the Department of Energy continually cites these 
failures to secure engineering and performance contracts as one 
of the major missed milestones, but in fact these contracts 
were publicly signed in December and January, and the December 
signing ceremony was in Beijing, even had DOE officials in 
attendance at that ceremony.
    Secretary Moniz. There has been EPC contract progress; 
partial, not complete, and the whole issue of financial close 
has certainly not been addressed. Again, we're not happy about 
it, but at some point the question was to move on, and in fact 
what the program is proposing is to repurpose those funds into 
new, innovative technologies at a smaller scale, chemical 
looping, oxy-combustion alternative approaches. So that's where 
the program has come down.
    Mr. Babin. Well, and I appreciate what you're saying. 
You're for the concept because the concept here, this project 
would store 90 percent of the CO<INF>2</INF> emitted. And 
carbon capture and storage is something that I think is the 
goal of this administration and of your department.
    Secretary Moniz. And we do have three large demonstration 
projects that will do that as well.
    Mr. Babin. Okay. Thank you, and I yield back.
    Secretary Moniz. Yes.
    Chairman Smith. Okay. Thank you, Mr. Babin.
    The gentleman from Texas, Mr. Veasey, is recognized.
    Mr. Veasey. Thank you, Mr. Chairman.
    Mr. Secretary, I have similar questions that I want to ask 
you, but first, let me also take the time to submit a letter to 
the record regarding the Texas Clean Energy Project. The Texas 
Clean Air Task Force, Natural Resources Defense Council, the 
Great Plains Institute, Third Way, the Center for Climate and 
Energy Solutions also sent a letter of support praising the 
potential for CO<INF>2</INF> capture.
    And also, Mr. Secretary, I wanted you to know that in 
addition to the Texas delegation letter of support that was 
just mentioned, the Washington State delegation and other 
environmental organizations will also be sending letters of 
support asking for DOE's consideration.
    Chairman Smith. Okay. And without objection, those letters 
will be made a part of the record.
    [The information appears on Appendix II]
    Mr. Veasey. Thank you. Thank you. Thank you very much.
    Also, Mr. Moniz, let me ask you about just being able to 
work with Congress to find a fair and transparent way to 
approach this project. And you just kind of--and you kind of 
touched on it a little bit but can you delve into that just a 
little bit more?
    Secretary Moniz. Well, as I said, I mean, the program, 
first of all, has taken many, many steps to help the project to 
be able to reach its goals. Most especially, financial closure 
has not happened. The--so the--but the program, again, gave the 
extension into May, the no-cost extension, to provide more 
time. If they were to meet milestones in that period, 
obviously, we would be going back to work with the project. But 
at some point we need performance.
    There's no--no one questions the desirability of the 
project as a project design, its objectives, its goals. That 
isn't the issue. But the program decided it was just time to 
move on and to invest in some new innovative technologies 
because of the lack of milestones being met.
    Chairman Smith. Would the gentleman from Texas yield just 
for a minute?
    Mr. Veasey. Yes.
    Chairman Smith. Secretary Moniz, just a follow-up on your--
on that statement, it seems to me that in a budget of the size 
of the Department of Energy and with all the agreement we have 
on the necessity for research and development in certain areas, 
that the Department might be able to take another look at that 
project and find some additional funds. We're just talking 
about several million dollars on a yearly basis, and I hope the 
Secretary would consider doing that.
    Secretary Moniz. We will--okay. We will certainly--I will 
certainly go back and----
    Chairman Smith. Okay.
    Secretary Moniz. --talk with the program about that.
    Chairman Smith. Okay. Thank you, Mr. Secretary. I 
appreciate that.
    Thank you, Mr. Veasey.
    Mr. Veasey. Oh, absolutely, Mr. Chairman.
    Also, most of the questions I wanted to ask, they were 
already covered, but I did want to ask you just one more thing 
and that is about EOR, enhanced oil recovery. You know, with 
carbon capture being a part of the question that I asked you 
earlier, what do you think of the future of EOR?
    Secretary Moniz. Well, EOR is a--has been extremely 
important, as you--I think in--you may know there's a lot of 
CO<INF>2</INF> flooding right now producing oil. The--a real 
issue has been the substantial drop in the oil price has made 
the EOR benefit less consequential for the overall economics. 
But the potential is dramatic.
    There's a report now, it's quite old, it's more than a 
decade old that said that, conceivably, the United States could 
reach two to three million barrels of oil per day from CO<INF>2</INF> 
flooding, and that would require hundreds of megatons of 
CO<INF>2</INF> per year that would have to be found from 
commercial plants.
    Mr. Veasey. Thank you very much, Mr. Secretary.
    Mr. Chairman, I yield back my time.
    Mr. Palmer. [Presiding] The Chair now recognizes Mr. Takano 
from Hawaii.
    Mr. Takano. California.
    Mr. Palmer. California, I'm sorry. Hawaii, California.
    Mr. Takano. That's the other Mr. Takano.
    Mr. Palmer. Sorry.
    Mr. Takano. Other Mr. Takei.
    Mr. Palmer. Takei. Okay. For five minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    First, Mr. Secretary, I want to thank you for being here. 
You know my own home State of California has a 1.3 gigawatt 
energy storage mandate, and utilities must procure 50 percent 
of their energy from renewables by 2030. As a Californian and 
the co-Chair of the bipartisan Battery Energy Storage Caucus, I 
am very interested in supporting this technology.
    It was recently announced that the Advanced Research Energy 
Projects-Energy, ARPA-E, made a big breakthrough in battery 
storage technology and have reached some holy grails in 
batteries. Can you talk a little bit about this breakthrough 
and how research and development dollars are so critical to 
fostering this type of high-risk technology?
    Secretary Moniz. Well, certainly, the--first of all, 
storage is a critical technology and potential game-changer, so 
we're all on the same page with that. And in fact in this 
budget there is substantial increased support for storage, both 
grid storage and mobile vehicle storage. The goals are--include 
things like doubling energy density while halving the costs, so 
they're pretty aggressive goals. I think we're making excellent 
progress towards them.
    And there are a variety of technologies being looked at. I 
think what you're referring to, I believe, is a flow battery 
advance that is still not quite at the holy grail but it's 
very, very, very encouraging.
    Mr. Takano. Great. I know you've already talked about 
renewable energy and the grid, and could you talk a little bit 
more about the Department of Energy's Grid Modernization 
Initiative, and what about--and what the grid of the future 
looks like? And how does the budget request help us get there?
    Secretary Moniz. So the Grid Modernization Initiative is 
the so-called crosscut that--for which we have the largest 
increase proposed because we think it is so central. We have a 
lot of infrastructures that depend upon the grid infrastructure 
for their operations. So it's absolutely central.
    So the Grid Modernization Initiative I would say at high 
level it certainly advances the technologies that one needs for 
a much more sophisticated set of sensors, IT data integration, 
real-time modeling of the grid for reliability and resilience 
and for connecting potentially very geographically diverse 
sources and loads. It will also go through the distribution 
system. We have a strong focus on the systems analysis, how do 
you put all of this together in a way that operates, again, 
emphasizing resilience and reliability.
    I might also add it will address the spectrum of risks from 
cyber to physical to geomagnetic disturbances. We have a 
program on EMP going on with Oak Ridge and EPRI, so it's a 
pretty comprehensive program looking at this grid of the 
future, which will need to serve in a very different way, 
particularly if distributed generation becomes a large part of 
the picture.
    Mr. Takano. Distributed generation meaning not so 
centralized?
    Secretary Moniz. The generation more at the load themselves 
like, for example, rooftop solar would be----
    Mr. Takano. That's a good example----
    Secretary Moniz. --a clear example----
    Mr. Takano. --of distributed----
    Secretary Moniz. Distributed generation. Right.
    Mr. Takano. You know, in light of the events--you mentioned 
kind of the different kinds of threats to the grid. In light of 
the events in the Ukraine where it appears that a coordinated 
cyber attack was successfully carried out on the country's 
electric grid, how is DOE prioritizing research in grid 
security?
    Secretary Moniz. Quite high. I mean, cybersecurity is a 
very, very serious threat, and I can say that the energy 
infrastructure is a target of many cyber attacks, and those are 
increasing year by year. So we have programs looking at new 
technology approaches. We have programs looking at working with 
the utilities directly in terms of their cyber defenses.
    Mr. Takano. Thank you, Mr. Chairman. My time is up. Thank 
you.
    Mr. Palmer. Thank you.
    The Chair now recognizes Mr. Grayson from Florida.
    Mr. Grayson. Thank you. I'd like to ask you, Mr. Secretary, 
some big-picture questions about fusion energy. As it safe to 
say that fusion energy is possible? In other words, it's not a 
like a perpetual motion machine, it's not like traveling faster 
than the speed of light? It's possible that we could have 
sustainable fusion energy reactors, right?
    Secretary Moniz. Absolutely.
    Mr. Grayson. All right. So it's been 50 years since we 
started trying and we've spent, oh, probably more than $50 
billion trying to accomplish this. Why hasn't it happened yet?
    Secretary Moniz. It is extremely difficult. The--certainly 
in confined plasma approaches, you know, the kinds of 
temperatures and--that are reached are extraordinary and we 
have materials issues, we have instability issues, and while 
there has been a lot of progress in terms of increasing the 
density of plasmas, we're not anywhere near there. We've not 
achieved ignition whether it's in confined plasma or in ICF.
    Mr. Grayson. So what do we----
    Secretary Moniz. And I might add that ARPA-E did put out a 
program which tried to open up a new frontier in some sense 
intermediate between inertial confined fusion and magnetically 
confined plasmas.
    Mr. Grayson. And the status of that?
    Secretary Moniz. I'm sorry?
    Mr. Grayson. The status of that?
    Secretary Moniz. The work is--the awards were made last 
year, and they're typically three-year awards. The research is 
going on right now.
    Mr. Grayson. What percentage of the fusion budget is now 
being spent on ITER--the ITER project?
    Secretary Moniz. Well, the ITER--the appropriation this 
year for ITER is $115 million, and the total fusion budget--I 
forgot exactly but it's 200 and something. It's probably, I'm 
guessing, 40 percent, something like that.
    Mr. Grayson. All right. Maybe not putting all of our eggs 
in one basket but aren't we putting an awful lot of eggs in 
that one basket?
    Secretary Moniz. Well, certainly, it's a large fraction of 
the budget. It's actually below the nine percent that ITER 
calls for. As you know, we have a report due to Congress on May 
2 on making a recommendation on what path to take with ITER, 
and that will be based in turn, among other things, on a 
technical review report due in April. So I think, you know, 
obviously the Congress has called for a decision point, and in 
May we will be providing a report.
    Mr. Grayson. What would be some of the economic and social 
impacts if you were able to solve this problem, we had feasible 
fusion reaction?
    Secretary Moniz. Well, of course, I just want to emphasize 
that feasible here in the end does also require an economic 
test in terms of its being competitive in the--in a low-carbon 
marketplace. Certainly if that's the case, fusion has the 
advantage of not having some of the waste challenges that one 
has in fission, for example, and it could provide a major 
baseload power source.
    Mr. Grayson. What do you mean by the issue that you just--
the waste? Be more specific about that, please.
    Secretary Moniz. Well, in fission the dominant part of the 
waste are the fission products that remain the challenge for a 
few hundred years typically. And so it's very, very radioactive 
and also very temperature hot as well, at least initially, 
whereas in fusion where one is dealing with very light 
elements, you do not have anything like the fission products. 
You clearly have materials that have been irradiated by 
neutrons, you know, that need to be D&D'ed at the end of the 
life of the reactor, but it's nothing like the long-term 
radioactivity of fission-spent fuel.
    Mr. Grayson. Do you picture the operating costs, not the 
capital costs but the operating costs of a fusion reactor to be 
high, low, or very, very low?
    Secretary Moniz. I just don't know until we see what the 
technology is. I just--as you said, it's been 50 years but I 
think we still can't answer that question.
    Mr. Grayson. Well, a couple decades ago NASA was running 
into a problem with giant white elephant projects, and they 
decided to go by a different route that they refer to as 
faster, better, and cheaper. Do you think that that tells us 
anything about where we should be going with fusion?
    Secretary Moniz. Well, first of all, there's no way around 
the fact that in fusion you're going to have to, one way or 
another, confine a nuclei in a challenging way.
    Now, what is interesting in my view is that there are about 
50 companies in the United States pursuing nuclear 
technologies, most of them fission but some of them fusion. 
Some of them have been prominently displayed on the front cover 
of a popular magazine, for example, two months ago.
    Mr. Grayson. All right. My time is up. Thank you.
    Secretary Moniz. Okay. Thank you.
    Mr. Palmer. I now recognize myself for questions. Mr. 
Moniz, in February of this year a report surfaced that you, 
along with other senior department officials, are using private 
email accounts to conduct official work-related business. Have 
you ever transmitted sensitive or classified information over 
your private email?
    Secretary Moniz. Certainly not, but I do need to clarify. I 
believe there's a little bit of a--just to make sure we're 
talking about the same thing. At DOE I have two accounts, one 
of which is ``my private account'' that I get emails directly 
to and another which is, frankly, the public-facing account, 
which gets screened by the Executive Secretary. So--the--but 
those are both DOE accounts.
    On the occasions when--if I get an email to my personal, 
personal account that's relevant to DOE business, I copy it to 
the government accounts so that there's a record of all--of 
everything.
    Mr. Palmer. So you're testifying that you've got two 
official accounts----
    Secretary Moniz. At DOE----
    Mr. Palmer. --at DOE----
    Secretary Moniz. --correct.
    Mr. Palmer. --and that occasionally you've used your 
personal account? Have you ever transmitted classified--
    Secretary Moniz. Absolutely not.
    Mr. Palmer. --sensitive data over your personal account?
    Secretary Moniz. Absolutely not. And everything----
    Mr. Palmer. Right.
    Secretary Moniz. And everything is--if that comes in--
mostly coming-in mail, then I copy it and any response into my 
DOE--in my DOE account----
    Mr. Palmer. Do----
    Secretary Moniz. --so there'll be a complete government 
record.
    Mr. Palmer. Do other members of--or officials in the 
Department of Energy use personal email accounts to your 
knowledge?
    Secretary Moniz. To my knowledge, no. Again, with--no, at 
least not--if--again, we can't avoid receiving an email----
    Mr. Palmer. Right.
    Secretary Moniz. --but then the direction is everything has 
to be copied to the government account.
    Mr. Palmer. Well, that's interesting because the--are you 
aware of this report about federal agencies and particularly 
DOE and FERC using personal emails for business?
    Secretary Moniz. My understanding--I've not seen the 
report, but my understanding is that was this confusion over 
having the two emails----
    Mr. Palmer. Well, it's not just you----
    Secretary Moniz. --in DOE.
    Mr. Palmer. --it's some of the officials at DOE.
    Secretary Moniz. To my knowledge, no one is using personal 
email for government business without having it in the 
government record.
    Mr. Palmer. Without having it in the government record. 
Title 44 covers that and requires that if you do use a personal 
email account that you've got to copy that to your government 
account within 20 days. Do you have a policy to ensure that any 
employee who may use a personal email account complies with the 
law?
    Secretary Moniz. I--well, I assume since it's the law that 
it is a policy, but I'd have to check with general counsel in 
terms of how explicitly we have that. But I can assure you with 
me it's 20 seconds.
    Mr. Palmer. That's very reassuring, and we're all grateful 
for that.
    Secretary Moniz. Right.
    Mr. Palmer. I do think, though, that considering the 
reports that are out there and considering what's going on in 
other agencies and it is going on in other agencies--and the 
reason I bring this up is that we've had this come up with--I'm 
on the Oversight Committee. It's come up with this. One of the 
things that I'm trying to do is ensure that we protect our 
information systems and particularly our most sensitive 
information systems.
    As we've had some discussions here--I think Mr. Grayson 
raised this about some of the things--or I think it was you 
that says it shows up in some of the Popular Science or 
whatever magazines. But there are some things that need to be 
protected, and----
    Secretary Moniz. And, sir, I'm happy, by the way--I'll go 
back and check with the counsel, and we're happy to reinforce 
the guidelines to everyone. Again, I don't know of any issue, 
but we can reinforce that.
    Mr. Palmer. Well, the reason I'm bringing this up is that 
the same information that we had made the claim that there was 
a FOIA request that the department officials declined to 
respond to because it involved information transmitted over 
your private email account. Now, private email account, can you 
distinguish between the two accounts that you have at the 
Department of Energy? Is--one of those might be considered a 
private account versus your personal email account?
    Secretary Moniz. The--again, the--one account at the 
Department of Energy is private in the sense that that----
    Mr. Palmer. Okay.
    Secretary Moniz. --email address is certainly not available 
to the public, but it is a government account. It is completely 
a government account.
    Mr. Palmer. Are you aware of anyone in your department 
refusing to comply with a FOIA request?
    Secretary Moniz. I am not aware of it, no. I'd have to 
check with the General Counsel.
    Mr. Palmer. Can you check with the General Counsel and get 
back with us----
    Secretary Moniz. Yes.
    Mr. Palmer. --and we can submit some very specific 
questions that you can respond to. So we would like to know 
whether or not there had been a FOIA request that involved any 
of your email accounts in which the Department did not respond. 
And so if you could do that, we'll get the questions to you, 
and we'd like an answer, I think, within 10 days. Would that be 
sufficient?
    Secretary Moniz. I would think so. I will--again, I'll talk 
to my counsel.
    Mr. Palmer. Okay.
    Secretary Moniz. Yes.
    Mr. Palmer. Well, I'd like to thank the witness for his 
testimony and the members for their questions. The record will 
remain open for two weeks for additional written comments and 
written questions from members.
    This hearing is adjourned.
    Secretary Moniz. Thank you.
    [Whereupon, at 12:06 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
